STATE OF SOUTH CAROLINA

)
)

COUNTY OF CHARLESTON

AFFIDAVIT

)

Personally came and appeared before me, Notary Public, C. Holmes, who upon being duly
sworn did depose and say the following:

I am the petitioner, over the age of eighteen (18) years, and competent to state the matters
1)
herein. This affidavit is based on personal knowledge and on information and belief. It is submitted in
support of the attached petition.

As set forth more fully below, it is respectfully submitted that the record reflects a pattern and
2)
practice of impropriety in fact as well as appearance of impropriety by the magistrate.

Specifically, the magistrate herein admitted he helped himself to an internet search outside the
record which formed the basis of wrongful Report and Recommendation (R&R) for dismissal. Timely
reasonable request for opportunity to respond to the unknown, unverified content over the internet and
outside the record was unreasonably denied. The Federal Court system has access to the magistrate’s
search history in the browser on Federal Court devices which can easily be retrieved in order to provide
the petitioner an opportunity to respond. The magistrate’s unlawful search and solicitation of
impermissible ex parte communication outside the record over the internet led to wrongful R&R
dismissal. But for the prejudicial error the outcome should and would be different.
3)

In addition, pejorative code words in the R&R are weaponized by the magistrate to prejudice
the case evidencing bias: petitioner is a “frequent filer.” For the record, there are three cases: a
Medicare appeal from 2011 which was pending with the ALJ for years(!); a complete diversity case;
and the instant case.
4)

The above reference to unrelated cases outside the record by the magistrate suggests the
impropriety and impermissible ex parte communication outside the record over the internet adversely
affected other cases as well. This magistrate has not been straight forward or forthcoming about his
apparent pattern and practice of wrongful search and solicitation of impermissible ex parte
5)

communication outside the record over the internet in another United States District Court for the
District of South Carolina Case No. 2:16-CV-3969. That wrongful R&R dismissal was filed the same
day as dismissal herein indicating the two cases were considered during the same time frame and were
subjected to the same wrongful search and solicitation of impermissible ex parte communication
outside the record over the internet. Petitioner is prejudiced thereby.

Significantly and materially, in that Case No. 2:16-CV-3969, the attached copy of the Docket
6)
Sheet shows the magistrate entered a text order on 07/02/18 directing both sides to “file a confirmation
with the Court that the required mediation was held, including the date on which it was held, by
Thursday, July 5, 2018.” The Docket Sheet, however, shows only one side filed a response: petitioner
timely filed through the mail on July 12, 2018. The petitioner was not copied on Defendant LLC’s
required response. On information and belief, the other side engaged in direct or indirect impermissible
ex parte communication with the Presiding District Court Judge by and through the magistrate
regarding that mediation. Petitioner is prejudiced thereby.

Entry 98 on page 11 of the attached Docket Sheet references petitioner’s motion for subpoena
V)
for deposition of defendant’s expert which the magistrate denied without comment.

In addition, this magistrate has not been straight forward or forthcoming about his apparent
8)
pattern and practice of wrongful search and solicitation of impermissible ex parte communication
outside the record over the internet in a third case. Wrongful R&R dismissal in that case was filed the
day before the wrongful R&R dismissal herein indicating the cases were considered during the same
time frame and were subjected to the same wrongful search and solicitation of impermissible ex parte
communication outside the record over the internet. The record reflects the magistrate’s failure to
disclose. Petitioner is prejudiced thereby.

FURTHER THE AFFIANT SAITH NOT.

Subscribed and sworn to before me,
Notary Public, this $
day
of

, 2020.

\
%

—

NOTARY PUBLIC
My commission expires: ^jf*"1f2*6*2- ^

CM/ECF - scd

Page 1 of 16

APPEAL,CLOSED,PROSE

U.S. District Court
District of South Carolina (Charleston)
CIVIL DOCKET FOR CASE #: 2:16-cv-03969-BHH
Holmes v. Granuaile LLC et al
Assigned to: Honorable Bruce Howe Hendricks
Case in other court: USCA, 19-01248
Cause: 28:1332 Diversity-Torts to Land

Date Filed: 12/21/2016
Date Terminated: 01/29/2019
Jury Demand: Plaintiff
Nature of Suit: 240 Torts to Land
Jurisdiction: Federal Question

Plaintiff
Cynthia Holmes

represented by Cynthia Holmes
P.O. Box 187
Sullivans Island, SC 29482
PROSE

V.
Defendant
Granuaile LLC

represented by Irish Ryan Neville
Stevens and Lee
151 Meeting Street
Suite 350
Charleston, SC 29401
843-414-8864
Fax: 610-371-8594
Email: im@stevenslee.com
LEAD ATTORNEY
A TTORNEY TO BE NOTICED
John Allen Massalon
Wills Massalon and Allen
PO Box 859
Charleston, SC 29402
843-727-1144
Email: jmassalon@wmalawfirm.net
TERMINATED: 12/07/2017
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Joseph Calhoun Watson
Robinson Gray Stepp and Laffitte LLC
1310 Gadsden Street
Columbia, SC 29201
803-929-1400

https://ecf.scd.uscourts.gov/cgi-bin/DktRpt.pl7303328903646118-L_l_0-l

01/24/2020

Page 11 of 16

CM/ECF - scd

MOTION for Reconsideration re 93 Order on Motion for Issuance of
Subpoena, by Cynthia Holmes. Response to Motion due by 7/12/2018. Add an
additional 3 days only if served by mail or otherwise allowed under Fed. R.
Civ. P. 6 or Fed. R. Crim. P. 45. (Attachments: # \ Envelope)Motions referred
to Bristow Marchant.(cwhi,) (Entered: 06/28/2018)
06/29/2018

99 MOTION to Strike 77 Plaintiffs ID of Expert Witnesses Motion to Strike
Plaintiffs Rebuttal Witnesses Joseph Kavanagh and Michael Woo by
Granuaile LLC, James P Walsh, L Walsh. Response to Motion due by
7/13/2018. Add an additional 3 days only if served by mail or otherwise
allowed under Fed. R. Civ. P. 6 or Fed. R. Crim. P. 45. (Attachments: # i
Memo in Support, # 2 Exhibit A - Jason Gregorie's Report, # 3 Exhibit A-l Jason Gregorie's Report, # 4 Exhibit A-2 - Jason Gregorie's Report, # 5 Exhibit
B - Expert Report of Joseph Kavanagh, # 6 Exhibit C - Deposition Excerpts of
Joseph Kavanagh, # 7 Exhibit D - Deposition Excerpts of Michael Woo)No
proposed order.Motions referred to Bristow Marchant.(Watson, Joseph)
(Entered: 06/29/2018)

06/29/2018

100 MOTION for Summary Judgment by Granuaile LLC, James P Walsh, L
Walsh. Response to Motion due by 7/13/2018. Add an additional 3 days only if
served by mail or otherwise allowed under Fed. R. Civ. P. 6 or Fed. R. Crim. P.
45. (Attachments: # 1 Memo in Support, # 2 Exhibit 1 - Affidavit of James
Walsh, # 3 Exhibit 2 - Deposition Excerpts of William Rogan, # 4 Exhibit 3 BZA Minutes, # 5 Exhibit 4 - Deposition Excerpts of Cynthia Holmes, # 6
Exhibit 5 - Affidavit of Jason Gregorie, # 7 Exhibit A- Jason Gregorie's Report,
# 8 Exhibit Al- Jason Gregorie's Report, # 9 Exhibit A2- Jason Gregorie's
Report, # J_0 Exhibit 6 - Deposition Excerpts of Jimmy Carroll, # U_ Exhibit 7 Deposition Excerpts of Connie Cooper, # L2 Exhibit 8 - Affidavit of Lauren
Walsh)No proposed order.Motions referred to Bristow Marchant.(Watson,
Joseph) (Attachment 12 replaced on 8/13/2018) (cwhi,). Modified on
8/13/2018 to replace with corrected document provided by the filing user
(cwhi,). (Entered: 06/29/2018)

07/02/2018

101

TEXT ORDER. On June 1, 2018, the Court specifically directed the
parties to complete mediation in this case prior to the dispositive motions
deadline. That deadline was June 29, 2018, a dispositive motion has been
filed by the Defendants, but the Court has received no information
concerning mediation. Therefore, it is ordered that the parties file a
confirmation with the Court that the required mediation was held,
including the date on which it was held, by Thursday, July 5, 2018. Signed
by Magistrate Judge Bristow Marchant on 7/02/2018. (elac,) (Entered:
07/02/2018)

07/02/2018

102

***DOCUMENT MAILED 101 Order placed in U.S. Mail to Cynthia Holmes,
(elac,) (Entered: 07/02/2018)

07/03/2018

104 ROSEBORO ORDER directing clerk to forward summary judgment
explanation to the opposing party and directing that party to respond in
31 days. Response due to 100 MOTION for Summary Judgment by
8/3/2018. Add an additional 3 days only if served by mail or otherwise
allowed under Fed. R. Civ. P. 6 or Fed. R. Crim. P. 45. Signed by

https://ecf.scd.uscourts.gov/cgi-bin/DktRpt.pl7303328903646118-L10-1

01/24/2020

Page 12 of 16

CM/ECF - scd

Magistrate Judge Bristow Marchant on 7/2/2018. (cwhi,) (Entered:
07/03/2018)
07/03/2018

105

***DOCUMENT MAILED-104 Roseboro Order, placed in U.S. Mail to
Cynthia Holmes, (cwhi,) (Entered: 07/03/2018)

07/12/2018

107 Letter from Cynthia Holmes. (Attachments: # l Redacted Mediation Letter, # 2
Envelope)(cwhi, ) (Entered: 07/12/2018) .

07/12/2018

108 RESPONSE in Opposition re 98 MOTION for Reconsideration re 93 Order on
Motion for Issuance of Subpoena, Response filed by Granuaile LLC, James P
Walsh, L Walsh.Reply to Response to Motion due by 7/19/2018 Add an
additional 3 days only if served by mail or otherwise allowed under Fed. R.
Civ. P. 6. (Watson, Joseph) (Entered: 07/12/2018)

07/13/2018

109 TEXT ORDER denying 98 Motion for Reconsideration. See Order (Court
Docket No. 93). See also Aloe Creme Laboratories, Inc. v. Francine Co.,
425 F.2d 1295,1296 (5th Cir. 1970). [The District Court clearly had the
right to take notice of its own files and records and it had no duty to grind
the same corn a second time. Once was sufficient.]. Entered at the
direction of Magistrate Judge Bristow Marchant on 7/13/2018.(cwhi,)
(Entered: 07/13/2018)

07/13/2018

110

DOCUMENT MAILED 109 Order on Motion for Reconsideration, placed
in U.S. Mail to Cynthia Holmes, (cwhi,) (Entered: 07/13/2018)

07/16/2018

111

APPEAL OF MAGISTRATE JUDGE DECISION to District Court by Cynthia
Holmes re 96 Order on Motion to Compel, (cwhi,) (Entered: 07/16/2018)

07/16/2018

112 RESPONSE in Opposition re 99 MOTION to Strike 77 Plaintiffs ID of Expert
Witnesses Motion to Strike Plaintiffs Rebuttal Witnesses Joseph Kavanagh
and Michael Woo Response filed by Cynthia Holmes.Reply to Response to
Motion due by 7/23/2018. Add an additional 3 days only if served by mail or
otherwise allowed under Fed. R. Civ. P. 6. (Attachments: # 1 Supporting
Documents)(cwhi,) (Entered: 07/16/2018)

07/23/2018

113

07/24/2018

114 TEXT ORDER denying, without prejudice 99 Motion to Strike. The Court
may consider this evidence as part of its review of the pending motion for
summary judgment, to the extent necessary or appropriate. However,
whether or not this evidence should be stricken and not allowed at trial is
a matter for the trial Court to decide at the appropriate time. As such, the
motion is premature but may be re-filed if the case proceeds to trial.
Entered at the direction of Magistrate Judge Bristow Marchant on
7/24/20I8.(cwhi,) (Entered: 07/24/2018)

07/24/2018

115

08/07/2018

116

REPLY to Response to Motion re 99 MOTION to Strike 77 Plaintiffs ID of
Expert Witnesses Motion to Strike Plaintiffs Rebuttal Witnesses Joseph
Kavanagh and Michael Woo Response filed by Granuaile LLC, James P
Walsh, L Walsh. (Watson, Joseph) (Entered: 07/23/2018)

***DOCUMENT MAILED 114 Order on Motion to Strike, placed in U.S.
Mail to Cynthia Holmes, (cwhi,) (Entered: 07/24/2018)

https://ecf.scd.uscourts.gov/cgi-bin/DktRpt.pl7303328903646118-L_l_0-l

01/24/2020

FORM 4
.STATE OF SOUTH CAROLINA
. 'CO U NTY O F CHARLESTON
IN THE COURT OF COMMON PLEAS

JUDGMENT IN A CIVIL CASE
CASE-NO. 2007 CP-10-1444

Holmes

Hayriesworth Slnkler Boyd, et al.

PLAINTIFF(S)'

DEFEN DANT(S)'
Attorney for : □ Plaintiff .

Submitted by:

or ' •

•:

Pe'fcndarit.';

_______ D Self-Represented Litigant ■

□
□
□
□

DISPOSITION TYPE (CHECK ONE)
JURY VERDICT. This action came before, the court for a trial by jury. The issues
have been tried and a verdict rendered.
DECISION BY THE’COURT. This action came to trial or hearing before^the coutJ^ 2
The issues have been tried or heard and a decision rendered. '
^
ACTION DISMISSED (CHECK REASON)- □ Rule 12(b), SCRCP; □ Ru\e 41<$);rr So
SCRCP (Vol. Nonsuit); □ Rule 43(k), SCRCP (Settled); □ Other
\.
^
ACTION STRICKEN (CHECK REASON): Q Rule 400), SCRCP; □ BankVuptcy®'^

~T\

CD Binding arbitration, subject to right to restore to confirm, vacate or modify i _
'zS~
arbitration award;.Q Other
‘
\T
^
DISPOSITION OF APPEAL TO THE CIRCUIT COURT (CHECK APPLIGABLg&QX):"
•CTJ
\E>
□ Affirmed; Q Reversed; CD Remanded; Q Other
NOTE: ATTORNEYS ARE RESPONSIBLE FOR NOTIFYING LOWER COURT, \ TRIBUNAL OR
ADMINISTRATIVE AGENCY OF THE CIRCUIT COURT RULING IN THIS APPEAL.
'

IT IS ORDERED AND ADJUDGED: CD See attached order (formal order to follow)® Statement of Judgment
by the Court: A supplemental proceedings hearing is scheduled to take place In this matter on March 10,2017. The court is
advised by the Clerk of Court's office that Cynthia Holmes, M.D., has filed several motlons ln this matter in violation of the
Supreme Court's order filed December 3,2009 directing the “Clerks of Court in this state to refuse to accept further filings from
petitioner in actions related in an'y way to the revocation of her medical staff privileges at East Cooper Community Hospital
unless they are filed by an attorney, other than petitioner, licensed to pradtee of lawln this state." Given the broad language
of this directive and the fact that the motions have been filed by Dr. Holmes, pro se, the court orders the Clerk of Court's office
to strike all-motions filed by Dr. Holmes in this matter as well as all future motions, if any.

ORDER INFORMATION
This order Q ends ® does not end the case.
Additional Information for the Clerk:

(i?

•Judgment in Favor of
(List name(s) below) .
NA-

HEPEBBIsi

Ii

"
Judgment Against
Judgment Amount To.be Enrolled
'_______(List 'n'ame(s) below) ._______ (List amount(s) below)--------NA

SNA

$
■$'

,lf applicable, describe the property, including tax map information arid address, referenced in the order.

SCRCP Form 4G (10/2011)

Page l of2

\—)
’

I'he judgment information above has been provided by the submitting party. Disputes concerning the amounts contained in this
lorm may be addressed by way of
pursuant to the SC Rules of Civil Procedure. Amounts to be computed such as interest
or additional taxable 'costs not
authc litjw^hc form and final order arc submitted to the judge may be provided to the

5^

ia£.

Circuit Court Ju

3062 .
Judge Code

For Clerk of Court Office Use Only
This judgment was entered on the
day of
placed in the appropriate attorney’s box on this
to parties (when appearing pro se) as follows:

ATTORNEY(S) FOR THE PLAINT!FF(S)

, 20
day of

and a copy.mailed first class or
. 20
.to attorneys of record or

ATTORNEY(S) FOR THE DEFENDANT(S)
CLERK OF COURT

Court Reporter:

SCRCP Form 4C (10/2011)

Page 2 of 2

aisaiBii,

■i‘-A <■ * V V«,. < ‘- 7

'-'t >1 lK;i

■

ANDV

. s;SSS,« Mpsffllll^^i:;::

■f:

■

'?■'■:■ !;'•■ -'gAVl^ecVll'PT Of THE.
.g''::-.':'Nl.S7^lD.piCiA!, CIRGUI'I
V.-.'
CfiAj<tESifON COUNT*.
:••"Vg'{{': 7 1OQ BRbA'D.SfKER, SIT'TE 1 -1.1
CpARitSTON f.'r.... J9>

'-: ■'•7:;.7:’4,4.3/'SsiM4*"" ’ '
"', ; '..7'r :..HB|3jMjSfr-PlST f AX
';clefkO!TOur’.rh.,rl,-!,!iirH..ijn'v...r;;

7:^ £KA^I^¥6si'’cbuNlfK"
’

■v

• - 'i"--‘^'‘-i;'-‘-iV

>.
■1 *

i

>*. -.

The enclosed document is bpmg:rpfo!rae4f()T tlie'foIIowmg i;eason(s); .
The.document is:not signed /notarized:-; -

....

The.filing fee is.insufficient. The cdrrect'axnonnt Is: ‘
The check or money order mustbe^pade pa^ab'l^to-tiie-jCflerkof Couxt^:-' .7
: 77•■ivA.-';^.7 r-7:

This.document is-^copyr We’mtj^'_tove4ivbiiginal. \

•-,'

'
T
l;

L

— This.is not a Charleston Couniy/case,'’'
\ ■

I ?■'.

•

%

y.

m

r ■

V

The case hasheemb-ansferred/remadcied to:__ :
Inmate litigation must comply, with &C, Code of Laws, Title 24, Chapter 27
:•

■■

'

'

The document is refused for filing,pujrauantto'S.C.:Code6f-Laws'§30-9.-3p(BXl):.•
Name of submitting-party:';,: -■:.n

-..-rg •,>•;- .•./>■ v.:.-• ' .

:yy.;;:.
• .iV,

*>

vy'

’ •
•*-

i
’

■ '• •

'!«• •, •.*•

There is noti-'case.-Usted
Information may be.ob'mined fi:QmOm^eb'-yiteatb.wp^/clerk6fcoi-ih;ch;irlesrO:ucouniv oi 'j

"" PSpiJ*S@|itti;iSgpS5Afe
Vfi ;•

■?r

•^7

-ne
!
V

/

!

/ •
/'

.....................

:7
?vf::.V

..............

•-

...............
y
■ i

-'■'O’

-ft**

Staff initials 7-7

■.

Pate--. $ I

*

"'

*■!■■

-’■< '7'

v
C-. 7

i

.V

•sT
r '■<

_

I >;

.“■i ,.h

j 'T*
...

':L>

:

■

©f)£ £§>outfi Carolina Court of Sppoals
Cynthia Holmes, M.D..

Appellani,
v.

Haynsworth. Sinkler &. Boyd. P.A..
successor to Sinkler & Boyd.. P.A.,
Manton Grier, and James Y. Becker.

Respondents.

The Honorable Thomas L. Hughston. Jr.
Charleston Count)'
Trial Court Case No. 2007-CP-10-01444

ORDER

Appellant nled a nonce of appeal from the order of the trial court sanctioning Appellani
m the amount of S200..000. Appellant filed a petition for supersedeas. Pursuant to the supreme
court's December 2, 2009 order in Doe v. Duncan we cannot accept Appellant's petition. See
Doe \. Duncan. ("Because we find petitioner has engaged, and continues to

engage in. vexatious

litigation related to [the revocation of her medical staff privileges at East Cooper Community
Hospital] we hereby direct the Clerks of Court in this state to refuse accept further filings from
petitioner . . . umess the>- are filed by an attorney, other than petitioner, licensed to practice lawin this state. ). Accordingly, Appellant's petition for supersedeas will not be accepted.
AND IT IS SO ORDERED.

Columbia. South Carolina

,2009

cc;

CymMa Collie. Esquire
John WiEcerson. BL Esquire
Richards. Dukes. Jr.

* *

STATE OF SOUTH CAROLINA

IN THE COURT OF COMMON PLEAS

COUNTY OF CHARLESTON

FOR THENINTH JUDICIAL CIRCUIT

Cynthia Holmes, M.D.,

C/A NO: 2007-CP-10-01444
Plaintiff.

cG.

%

vs.
\

Haynsworth Sinkter Boyd, P.A., successor
to Sinkler & Boyd, P.A., Man ton Grier and
James Y. Becker

*,

V\ -o

CTcl '•

Cf"-..

<-•

<o

Defendants.

DEFENDANTS’ MOTION TO DISMISS CERTAIN PARTIES
Defendants Haynsworth Sinkler Boyd, P.A., successor to Sinkler & Boyd, P.A., Manton
Grier and James Y. Becker (collectively, the “Defendants”) hereby move this Court to dismiss
Manton Grier and James Y. Becker as petitioners under the Verified Petition filed on January 3,
2017. Messrs. Becker and Crricr are employees of Haynsworth Sinkler Boyd, P.A. and do not
have any ownership rights or interests in the sanctions judgment that is the subject of the
Verified Petition.

As a result, they request that they be dismissed as Petitioners, and that

Haynsworth Sinkler Boyd, P.A. be the sole remaining petitioner in this action. There are no
pending claims asserted by Plaintiff against Defendants in this matter. A proposed order is
attached.

L\

wORTH SINiKLER BOYD, P.A.
Mar^M. Caskey, S.C BarNof?6^98
Post Office Box 11889
/ N.
Columbia, South Carolina 29211 I
\
Telephone: (803) 779-3080
V__ /
Facsimile No: (803)765-1243
ATTORNEYS FOR DEFENDANTS

September 22,2017

1

No.

IN THE SUPREME COURT OF THE
UNITED STATES

C. Holmes
Petitioner,

v.
James Y. Becker, M. M. Caskey,
Mikell R. Scarborough, and
Haynsworth Sinkler Boyd, PA,
as successor to Sinkler & Boyd, PA,
Respondents,

APPENDIX

C. Holmes
P.O. Box 187
Sullivans Island, SC 29482
843.883.3010

INDEX TO APPENDICES

Appendix A

USAP4 decision

Appendix B

US District Court for the District of SC decision and
Report & Recommendation

Appendix C

USAP4 denial of Petition for Rehearing

Appendix D

State court decision filed February EL, 2017

z:i/-cv-uzy4y-BHH
USCA4 Appeal: 19-1572

Date Filed 11/25/19

Doc: 27

Entry Number 130

Filed: 11/25/2019

Page lot 2

Pg: 1 of 2

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-1572
CYNTHIA HOLMES, a/k/a C. Holmes, a/k/a Cynthia Holmes, M.D.,
Plaintiff - Appellant,
v.

JAMES Y. BECKER, Individually; M.M. CASKEY, Individually;
HAYNSWORTH SINKLER BOYD, P.A.; MIKELL R. SCARBOROUGH, in
official capacity and, as indicated, individually re: unofficial acts,
Defendants - Appellees.

Appeal from the United States District Court for the District of South Carolina, at
Charleston. Bruce H. Hendricks, District Judge. (2:17-cv-02949-BHH)
Submitted: November 21, 2019

Decided: November 25, 2019

Before KEENAN and DIAZ, Circuit Judges, and SHEDD, Senior Circuit Judge.
Affirmed by unpublished per curiam opinion.
Cynthia C. Holmes, Appellant Pro Se. Mary McFarland Caskey, Mary Cothonneau
Eldridge, HAYNSWORTH SINKLER BOYD, PA, Columbia, South Carolina; Andrew
Lindemann, LINDEMANN, DAVIS & HUGHES, PA, Columbia, South Carolina, for
Appellee.
Unpublished opinions are not binding precedent in this circuit.

APP A

USCA4Appea^:^:^y4^P:^7 uate

pa9e *oT z

PER CURIAM:
Cynthia Holmes appeals the district court’s orders accepting the recommendation
of the magistrate judge and dismissing her civil action and denying her Fed. R. Civ. P.
59(e) motion. Holmes’ action related to a state court sanctions award and a related
discovery and sanction order. We have reviewed the record and find no reversible error.
Accordingly, we affirm for the reasons stated by the district court. Holmes v. Becker, No.
2:17-cv-02949-BHH (D.S.C. Mar. 29,2019 & May 23,2019). We grantHolmes’ motions
to exceed the page limitations for the informal brief and to amend her notice of appeal to
include an appeal from the denial of the Rule 59(e) motion and deny Holmes’ motion to
correct the record and for clarification. We dispense with oral argument because the facts
and legal contentions are adequately presented in the materials before this court and
argument would not aid the decisional process.
AFFIRMED

2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
CHARLESTON DIVISION

Cynthia Holmes,
Plaintiff,
v.
James Y. Becker, M.M. Caskey,
Haynsworth Sinkler Boyd, P.A., and
Mikell R. Scarborough,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)

Civil Action No. 2:17-2949-BHH
ORDER

This matter is before the Court upon Plaintiff Cynthia Holmes (“Holmes” or “Plaintiff’)
pro se complaint against Defendants James Y. Becker (“Becker”); M.M. Caskey (“Caskey”);
Haynsworth Sinkler Boyd, P.A. (“HSB”); and Mikell R. Scarborough (“Scarborough”).
Plaintiffs original complaint was only five pages, but her second amended complaint
consists of a 54-page complaint with 87 pages of attached exhibits, and Plaintiff alleges 12
causes of action based on, inter alia, the Fair Debt Collections Practices Act, 15 U.S.C.
§ 1692, et seq., (“FDCPA”); the South Carolina Consumer Protection Code, S.C. Code
Ann. § 37-5-101, etseq/, and the United States Constitution.
On July 11, 2018, Defendants Becker, Caskey, and HSB filed a motion to dismiss
pursuant to Rule 12 of the Federal Rules of Civil Procedure. On August 14, 2018,
Defendant Scarborough also filed a motion to dismiss pursuant to Rule 12. Plaintiff filed
responses in opposition to Defendants’ motions, and Defendants filed replies.

In

accordance with 28 U.S.C. § 636(b)(1)(A) and (B) and Local Civil Rule 73.02(B)(2)
(D.S.C.), the matter was referred to a United States Magistrate Judge for preliminary

/tPP- 3

review.
On October 31,2018, the Magistrate Judge issued a Report and Recommendation
(“Report”) outlining the issues and recommending that the Court grant Defendants’
motions. Plaintiff filed a motion for extension of time to file objections along with a motion
to stay pending the resolution of a prior interlocutory appeal to the Fourth Circuit Court of
Appeals. The Court granted Plaintiffs’ motion for an extension of time, instructing her to
file her objections by December 13,2018, but denied her motion to stay on December 11,
2018. The Court also granted Plaintiff additional time to file objections, instructing her to
file them on or before January 2, 2019.
On December 27, 2018, Plaintiff filed a motion for reconsideration with respect to
the Court’s order denying her motion to stay, and on January 2, 2019, Plaintiff filed
objections to the Magistrate Judge’s Report. Defendants have filed responses to Plaintiff s
motion to reconsider and to Plaintiffs objections, and Plaintiff has filed a reply and
supplemental affidavit. For the reasons set forth herein, the Court denies Plaintiffs motion
to reconsider and finds Plaintiffs objections wholly without merit. Accordingly, the Court
adopts the Magistrate Judge’s Report and grants Defendants’ motions to dismiss as
outlined herein.
STANDARDS OF REVIEW
I.

The Magistrate Judge’s Report
The Magistrate Judge makes only a recommendation to the Court,

The

recommendation has no presumptive weight, and the responsibility to make a final
determination remains with the Court. Mathews v. Weber, 423 U.S. 261 (1976). The Court
is charged with making a de novo determination only of those portions of the Report to
2

which specific objections are made, and the Court may accept, reject, or modify, in whole
or in part, the recommendation of the Magistrate Judge, or recommit the matter to the
Magistrate Judge with instructions. 28 U.S.C. § 636(b)(1). In the absence of specific
objections, the Court reviews the matter only for clear error. See Diamond v. Colonial Life
& Accident Ins. Co., 416 F.3d 310, 315 (4th Cir. 2005) (stating that “in the absence of a
timely filed objection, a district court need not conduct a de novo review, but instead must
‘only satisfy itself that there is no clear error on the face of the record in order to accept the
recommendation.’”) (quoting Fed. R. Civ. P. 72 advisory committee’s note).
II.

Federal Rule of Civil Procedure 12
Under Federal Rule of Civil Procedure 8(a)(2), a pleading must contain a “short and

plain statement of the claim showing that the pleader is entitled to relief.” Fed. R. Civ. P.
8(a)(2). As the Supreme Court held in Bell Atl. Corp. v. Twombly, the pleading standard
set forth in Rule 8 “does not require ‘detailed factual allegations,’ but it demands more than
an unadorned, the-defendant-unlawfuliy-harmed-me accusation.” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009) (quoting Twombly, 550 U.S. 544, 555 (2007)). Thus, “[a] pleading
that offers ‘labels and conclusions’ or ‘a formulaic recitation of the elements of a cause of
action will not do.’” Id. “Nor does a complaint suffice if it tenders ‘naked assertion[s]’
devoid of ‘further factual enhancement.” Id. (quoting Twombly, 550 U.S. at 557).
A motion to dismiss pursuant to Federal Rule of Civil Procedure 12(b)(6) examines
the legal sufficiency of the facts alleged on the face of a plaintiffs complaint. Edwards v.
City of Goldsboro, 178 F.3d 231, 243 (4th Cir. 1999). To survive a Rule 12(b)(6) motion,
“[fjactual allegations must be enough to raise a right to relief above the speculative level.”
Twombly, 550 U.S. at 555. The “complaint must contain sufficient factual matter, accepted
3

as true, to ‘state a claim to relief that is plausible on its face.’ ” Iqbal, 556 U.S. at 678
(quoting Twombly, 550 U.S. at 570). A claim is facially plausible when the factual content
allows the court to reasonably infer that the defendant is liable for the misconduct alleged.
Id. When considering a motion to dismiss, the court must accept as true all of the factual
allegations contained in the complaint. Erickson v. Pardus, 551 U.S. 89, 94 (2007).
In reviewing a Rule 12(b) motion, a court may consider, in addition to the factual
allegations of the complaint, any document that is “integral to and explicitly relied on in the
complaint.” Phillips v. LCI International, Inc., 190 F.3d 609, 618 (4th Cir. 1999); Olson v.
Midland Funding, LLC, 578 F. App’x248,250 (4th Cir. 2014) (“In considering a Fed. R. Civ.
P. 12(b)(6) motion, a court may consider the complaint itself and any documents that are
attached to it....”) (internal citations omitted).
ANALYSIS
I.

Plaintiff’s Motion to Reconsider
As previously outlined, Plaintiff filed a motion to reconsider the Court’s December

11 order, which denied her motion to stay this action pending resolution of the interlocutory
appeal she filed on October 22, 2018. In the December 11 order, the Court determined
that Plaintiffs interlocutory appeal did not require a stay of this action because the appeal
involves issues entirely distinct from the issues addressed in the Magistrate Judge’s
Report. Thus, the Court denied Plaintiffs motion to stay finding that the appeal does not
involve any controlling question of law that would affect the Court’s consideration of the
Report. (ECF No. 80 at 2.) In her motion to reconsider, Plaintiff again asks the Court to
stay this case pending resolution of her interlocutory appeal.
Ordinarily, a court may grant a motion to alter or amend pursuant to Rule 59(e) for
4

only three reasons: (1) to comply with an intervening change in controlling law; (2) to
account for new evidence not available previously; or (3) to correct a clear error of law or
prevent manifest injustice. See Pac. Ins. Co. v. Am. Nat'l Fire Ins. Co., 148 F.3d 396,403
(4th Cir. 1998); Exxon Shipping Co. v. Baker, 554 U.S. 471, 485 n. 5 (2008). Here, after
review, the Court finds that Plaintiffs motion to reconsider simply rehashes the arguments
the Court previously rejected, and the Court finds that Plaintiff does not point to any
intervening change in controlling law or new evidence sufficient to alter the Court’s prior
decision. In addition, the Court does not believe that relief is warranted to correct a clear
error of law or to prevent manifest injustice. Accordingly, the Court denies Plaintiff s motion
to reconsider and proceeds to consider Plaintiffs objections to the Magistrate Judge’s
Report.
II.

Plaintiffs Objections to the Magistrate Judge’s Report
The allegations of Plaintiffs second amended complaint stem from a case that

Plaintiff, who is a physician, initially brought against East Cooper Community Hospital
(“East Cooper”) in connection with the revocation of her medical staff privileges in 1997.
Defendants HSB and Becker (along with another attorney employed by HSB) represented
Plaintiff in that action.

Plaintiffs litigation with East Cooper ultimately resulted in

subsequent litigation filed by Plaintiff, including a malpractice action against HSB, Becker,
and the other attorney who represented her. As a result of the aforementioned litigation,
a number of orders have been entered against Plaintiff, including a circuit court order
sanctioning Plaintiff and entering judgment against her in the amount of $200,000.00 and
an order from the South Carolina Supreme Court finding that Plaintiff has engaged in
vexatious litigation related to the revocation of her medical staff privileges at East Cooper
5

and specifically directing the Clerks of Court in South Carolina to refuse to accept further
filings from Plaintiff in actions related in any way to the revocation of her medical staff
privileges at East Cooper unless they are filed by an attorney licensed to practice law in
South Carolina. (See ECF No. 27-2; ECF No. 46-3.)
Although the claims in Plaintiffs second amended complaint are difficult to decipher,
she alleges that HSB’s efforts to collect on the previously-mentioned court-ordered
sanctions award against her violates the FDCPA and the South Carolina Consumer
Protection Code. Plaintiff also alleges that Defendant Scarborough, Master-in-Equity for
Charleston County, wrongfully issued two orders in connection with HSB’s efforts to collect
on the sanctions award, specifically, an alleged “ex parte" order issued by Judge
Scarborough on February 9, 2017, and a discovery and sanctions order issued by Judge
Scarborough on June 23, 2017. (See ECF No. 33 HU 7, 19; ECF Nos. 46-5 and 46-11.)
In addition, Plaintiff claims, inter alia, that Judge Scarborough’s acts were non-judicial and
were without jurisdiction and that all Defendants have conspired against her and have
denied her of various constitutional rights.
In his Report, the Magistrate Judge outlined Plaintiffs claims as follows:
In her First Cause of Action, Plaintiff asserts a claim under the South
Carolina Constitution seeking injunctive relief requiring the Defendants to
“refrain from enacting, executing, enforcing or attempting to enforce the
February 9, 2017, Order”, a copy of which is attached to the Second
Amended Complaint. \±, 31-36. In her Second Cause of Action, Plaintiff
seeks this same injunctive relief asserted as a federal constitutional claim.
Jd., HU 37-42. In her Third Cause of Action, Plaintiff seeks this same
injunctive relief under South Carolina tort or common law. JcL, UU 43-47. In
her Fourth Cause of Action, Plaintiff seeks damages against the
Defendants under 42 U.S.C. § 1983 for a violation of her constitutional right
of access to the courts and to free speech. Id.. HIT 48-59. In her Fifth Cause
of Action, Plaintiff seeks declaratory and injunctive relief, again pursuant to
6

42 U.S.C. § 1983. \±, 1111 60-73. In her Sixth Cause of Action, Plaintiff
seeks damages against the Defendants pursuant to 42 U.S.C. § 1985 for
having engaged in an illegal conspiracy against her. jd,, 1ffl 74-88. In her
Seventh Cause of Action, Plaintiff asserts a cause of action for negligence
against the Attorney Defendants, specifically with respect to correspondence
sent by the Defendant Caskey on November 1,2016 seeking payment of the
judgment amount that had been entered against the Plaintiff, id., UU 89-90,
and Plaintiffs attached Exhibit B. In her Eighth Cause of Action, Plaintiff
asserts “Equitable Claims” against the Attorney Defendants for falsely
claiming or misrepresenting amounts of money owed, id., HIT 91-92. In her
Ninth Cause of Action, Plaintiff asserts a claim under the FDCPA against
the Attorney Defendants for falsely representing the character, amount,
and/or legal status of the debt owed, again referencing counsel’s
correspondence of November 1, 2016. id, ffil 93-97. In her Tenth Cause
of Action, Plaintiff asserts this same claim against the Attorney Defendants
pursuant to the South Carolina Consumer Protection Code, id., H H 98-102.
In her Eleventh Cause of Action, Plaintiff asserts a claim under the
SCUTPA (S.C. Code Ann. § 39-5-10, et sea.1. again relating to the
correspondence of November 1, 2016. id,, UU 103-107. Finally, in her
Twelfth Cause of Action, Plaintiff asserts a state law claim for civil
conspiracy against all of the named Defendants, id, UU 108-118. Plaintiff
seeks declaratory and/or injunctive relief and monetary damages, including
fees and costs. See generally. Plaintiffs Second Amended Complaint, with
attached Exhibits.
(ECF No. 71 at 4-6.)
Next, the Magistrate Judge proceeded to consider the merits of the parties’ motions
to dismiss.

First, with respect to Defendant Scarborough’s motion to dismiss, the

Magistrate Judge agreed with Scarborough that he is entitled to judicial immunity because
the actions for which he is being sued all concern judicial acts made within his jurisdiction.
In so finding, the Magistrate Judge specifically rejected Plaintiffs arguments that
Scarborough is not entitled to judicial immunity because he is not a circuit court judge; that
Scarborough is not entitled to judicial immunity because the complained-of acts were non­
judicial in nature; and that Scarborough is not entitled to judicial immunity because he
lacked jurisdiction to issue the complained-of orders.
7

In addition, the Magistrate Judge determined that, pursuant to the RookerFeldman doctrine, Plaintiff cannot, through the filing of this lawsuit, effectively seek review
of judgments entered in her previous state court cases, as lower federal courts do not hear
“appeals" from state court actions. See Plylerv. Moore, 129 F.3d 728,731 (4th Cir. 1997).
(noting that “jurisdiction to review such decisions lies exclusively with superior state courts
and ultimately the United States Supreme Court”).
In addition, with respect to the remaining Defendants’ motion to dismiss, the
Magistrate Judge determined: (1) that Plaintiffs constitutional claims asserted under 42
U.S.C. § 1983 are subject to dismissal because the remaining Defendants are not state
actors and Plaintiffs complaint contains no plausible allegations that these Defendants’
actions constituted anything other than private conduct or that these Defendants otherwise
conspired with a state actor; (2) that the Anti-Injunction Act bars Plaintiffs claims for
injunctive relief; (3) that any attempts by Plaintiff to raise claims that she could have
presented in the earlier state court litigation fail because Plaintiff is barred by the doctrines
of res judicata and collateral estoppel from re-litigating claims in this suit; (4) that to the
extent any state court actions are still pending, the abstention doctrine set forth in Younger
v. Harris, 401 U.S. 37, 91 (1971), and its progeny bars this Court from interfering with
ongoing state court proceedings; and (5) that Plaintiff fails to allege sufficient facts to state
a claim under the FDCPA because there is nothing false, deceptive, or unfair about
Defendants’ attempt to collect on a sanctions award entered by a court, because Plaintiff
is not a “consumer" under the FDCPA, and because the alleged debt does not arise out of
a transaction entered primarily for person, family, or household purposes. Having found
that Defendants were entitled to dismissal of all of Plaintiffs claims that arise under federal
8

law, the Magistrate Judge further recommended that the Court decline to exercise
supplemental jurisdiction over Plaintiffs remaining state law claims.
Plaintiff filed 70 pages of objections, along with 28 pages of exhibits, essentially
objecting to the Magistrate Judge’s Report in whole. For the most part, Plaintiff s objections
are rambling and largely incoherent, and she simply rehashes arguments raised in
response to Defendants’ motions to dismiss and rejected by the Magistrate Judge. For
example, it appears that pages 37 through 70 of her objections correspond almost exactly
to pages 5 through 36 of her response to Defendants’ motions. (Cf. ECF No. 69 at 5-36
and ECF No. 87 at 37-70.) The Court finds this portion of Plaintiffs objections wholly
without merit, as it simply seeks reconsideration of her entire case under the guise of
objecting.

In addition, Plaintiff raises several irrelevant arguments in her objections

regarding other litigation in which she has been involved and having little to do with the
claims raised in this action, and the Court also finds these portions of Plaintiff s objections
without merit. Finally, however, to the extent the Court can decipher specific objections to
the Magistrate Judge’s Report, this order tries to address them.
First, with respect to the Magistrate Judge’s findings as to Defendant Scarborough’s
motion to dismiss, Plaintiff objects that Scarborough is not entitled to judicial immunity
1 The United States District Court for the Western District of Virginia once reviewed objections to a
Magistrate Judge’s Report that were copied directly from prior pleadings and determined that this practice
does not constitute the submission of specific, written objections and does not entitle a plaintiff to de novo
review. See Veneyv. Astrue, 539 F. Supp. 2d 841, 845 (W.D. Va. 2008). In Veney, the plaintiffs objections
were “an almost verbatim copy of the ‘Argument’ section" of the plaintiffs brief, and the court explained that
it was improper for Plaintiff “to seek re-argument and reconsideration of her entire case in the guise of
objecting.” Id. at 844; see also Hobek v. Boeing Company, 2017 WL 3085856, *2 (D.S.C. July 20,2017). As
the Court explained in Veney. “The functions of the district court are effectively duplicated as both the
magistrate and the district court perform identical tasks. This duplication of time and effort wastes judicial
resources rather than saving them, and runs contrary to the purposes of the Magistrates Act.” 539 F. Supp.
2d at 845 (citation omitted); see also United States v. Midgette, 478 F.3d 616, 621-22 (4th Cir. 2007).

9

because he is not a judge. (See ECF No. 87 at 23). Plaintiff raised this exact argument
to the Magistrate Judge, and the Court finds that the Magistrate Judge properly rejected
it because in South Carolina a master-in-equity is part of the unified court system and is
equivalent to a circuit court judge for purposes of judicial immunity. See S.C. Code Ann.
§§ 15-11-10 and -15; see also Chu v. Griffith, 771 F.2d 79, 81 (4th Cir. 1985) (“It has long
been settled that a judge is absolutely immune from a claim for damages arising out of his
judicial actions.”).
Next, Plaintiff objects that Scarborough is not entitled to judicial immunity because
his actions fall within an exception to judicial immunity. Again, Plaintiff raised this argument
before the Magistrate Judge, and the Court finds that the Magistrate Judge properly
rejected it. From a review of Plaintiffs second amended complaint, it is clear that she is
suing him for judicial acts he made as the master-in-equity in connection with state court
litigation in which Plaintiff was a party. Moreover, after considering the court orders and
records from Plaintiffs prior state court proceedings-all matters of public record of which
the Court may properly take judicial notice in considering Defendants’ motions-it is clear
that Scarborough issued the orders in question in his judicial capacity and not in the
absence of jurisdiction, as they were made pursuant to orders of reference from the circuit
court. (See ECF Nos. 46-2 and 46-4.) Plaintiff objects to the validity of the circuit court
orders of reference, but the Court finds Plaintiffs objection wholly unsupported.
Furthermore, the Court notes that, pursuant to the Rooker-Feldman doctrine, this Court is
without jurisdiction to review the merits of state court decisions because “jurisdiction to
review such decisions lies exclusively with superior state courts and ultimately the United
States Supreme Court.” Plylerv. Moore, 129 F.3d 728, 731 (4th Cir. 1997). In all, the
10

Court finds Plaintiffs objections as to the Magistrate Judge’s findings regarding
Scarborough’s motion to dismiss without merit.
Plaintiff also objects to the Magistrate Judge’s findings as to the remaining
Defendants’ motion to dismiss, again essentially rearguing her claims and making entirely
eonclusory and often nonsensical allegations against these Defendants. For example,
Plaintiff asserts that the record reflects that Defendants all acted in concert to conspire
against her and fix the outcome of the case by:
impermissible ex parte judge shopping, impermissible ex parte contact,
wrongful taking of plaintiffs property and unearned filing fees, wrongfully
striking of R. 60 SCRCP and other motions, denial of right to self­
representation, denial of ability to file, denial of request to be heard as per the
transcript excerpt included herein, infra, denial of adequate for meaningful
review on appeal, and/or denial of due process, and other state and Federal
constitutional and statutory due process and other protections, rights, and
laws.
(ECF No. 87 at 10.) Plaintiff repeats allegations like these throughout her objections but
nowhere in her second amended complaint does she allege sufficient facts to state any
plausible federal claims. As the Supreme Court has explained, “[a] pleading that offers
‘labels and conclusions’ or ‘a formulaic recitation of the elements of a cause of action will
not do.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Twombly, 550 U.S. 544,555
(2007)). “Nor does a complaint suffice if it tenders ‘naked assertion^]’ devoid of ‘further
factual enhancement.” Id. (quoting Twombly, 550 U.S. at 557).
Here, with respect to Plaintiffs assertion that Defendants violated her rights pursuant
to 42 U.S.C. § 1983, the Court agrees with the Magistrate Judge that there are no plausible
allegations in Plaintiffs complaint to suggest that the law firm Defendants’ actions were
anything other than purely private conduct. Moreover, with respect to Plaintiffs repeated

11

assertion that the law firm Defendants conspired with Scarborough to violate her rights, the
Court finds Plaintiffs claims entirely conclusory and wholly without substance. (See, e.g.,
ECF No. 87 at 13,18-19, 21,25-27.) Likewise, the Court finds no merit to Plaintiffs newly
raised claim that Defendants somehow conspired to discriminate against her based on her
gender, as Plaintiffs complaint fails to allege any facts indicating a discriminatory motive
on the part of Defendants. (See id. at 29.) Thus, the Court agrees with the Magistrate
Judge that Plaintiff has failed to allege a plausible claim under either § 1983 or § 1985.
Plaintiff next objects that the Anti-Injunction Act does not preclude the relief she
seeks and/or is inapplicable, but she provides no support for this assertion, and the Court
finds Plaintiffs objection without merit. (See ECF No. 86 at 30.) Rather, as the Magistrate
Judge properly concluded, 28 U.S.C. § 2283 provides that, with certain exceptions that do
not apply here, “[a] court of the United States may not grant an injunction to stay
proceedings in a State court. ...” In addition, Plaintiff also summarily asserts that the
Younger abstention doctrine does not apply, but again, she provides no support for this
assertion, and the Court again finds Plaintiffs objection without merit. {Id. at 34.) Instead,
the Court agrees with the Magistrate Judge that to the extent that any state court actions
remain pending, the Younger abstention doctrine bars the Court from interfering with the
ongoing state court proceeding. Moreover, the Court fully agrees with the Magistrate
Judge that to the extent Plaintiff seeks to re-litigate matters already decided in state court
proceedings, or matters that Plaintiff had the opportunity to litigate in state court
proceedings, the doctrines of res judicata and collateral estoppel bar such claims.
Finally, with respect to Plaintiffs claims under the FDCPA, the Court finds that that
Plaintiff is not a “consumer” for purposes of the FDCPA; that Plaintiff has failed to allege
12

sufficient facts to show that Defendants’ attempt to collect on a sanctions award is
deceptive or unfair, and that this case does not involve a “debt” arising out of a transaction
entered primarily for personal, family, or household purposes, notwithstanding Plaintiffs
wholly unsupported objections to the contrary.
In all, the Court finds that Plaintiffs objections fail to point to any legal or factual error
in the Magistrate Judge’s analysis sufficient to alter the outcome of this case. Leaving
aside Plaintiffs non-specific objections, or those that are impossible to decipher, the
remainder of Plaintiffs objections are conclusory and lack both legal and factual support.
The Court ultimately agrees with the Magistrate Judge that Plaintiffs federal claims either
fail to allege sufficient factual matter to state a plausible claim for relief or are simply
unavailable to Plaintiff in this action as a matter of law. The Court also agrees with the
Magistrate Judge that, having determined that Plaintiffs federal claims are subject to
dismissal, it is appropriate to decline to exercise supplemental jurisdiction over Plaintiffs
remaining state law claims. See, e.g., Mills v. Leath, 709 F. Supp. 671, 675-76 (D.S.C.
1988) (noting that federal courts should generally decline to exercise pendant jurisdiction
over remaining state law claims after the dismissal of federal claims in a lawsuit).
CONCLUSION
Based on the foregoing, it is hereby ORDERED that Plaintiffs motion to reconsider
(ECF No. 86) is denied; the Magistrate Judge’s Report (ECF No. 71) is adopted and
specifically incorporated herein; Plaintiffs objections (ECF No. 87) are overruled;
Defendant Scarborough’s motion to dismiss (ECF No. 46) is granted, and he is dismissed
as a party from this action; the remaining Defendants’ motion to dismiss (ECF No. 35) is

13

granted; Plaintiffs federal causes of action under § 1983, § 1985, and the FDCPA
(Plaintiffs second, fourth, fifth, sixth, and ninth causes of action) are dismissed; and
Plaintiffs remaining state law claims are dismissed without prejudice.
AND IT IS SO ORDERED.
/s/Bruce H. Hendricks___________
The Honorable Bruce H. Hendricks
United States District Judge
March 28, 2019
Charleston, South Carolina

14

2:17-cv-02949-BHH

Date Filed 10/31/18

Entry Number 71

Page 1 of 21

IN THE UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA
CHARLESTON DIVISION

Cynthia Holmes,
Plaintiff,
v.
James Y. Becker, M. M. Caskey,
Haynsworth Sinkler Boyd, P.A., and
Mikell R. Scarborough,
Defendants.

C/A 2:17-2949-BHH-BM

)
)
)
)

)

REPORT AND RECOMMENDATION

)
)
)
)
)
)

This action has been filed by the Plaintiff, gro se,1 originally asserting claims pursuant
to the Fair Debt Collections Practices Act (FDCPA), 15 U.S.C. § 1692, eL seq., and the South
Carolina Consumer Protection Code, S.C. Code Ann. § 37-5-101, et seq. Plaintiff amended her
original pro se Complaint on July 3,2018 to include additional claims. See Court Docket Nos. 30
and 33; see also Court Docket No. 31.
The Defendants Becker, Caskey and Haynsworth Sinkler Boyd, P.A., filed a motion
to dismiss pursuant to Rule 12, Fed.R.Civ.P., on July 11,2018. As the Plaintiff is proceeding pro
se, a Roseboro order was entered by the Court on July 12,2018, advising Plaintiff of the importance
of a dispositive motion and of the need for her to file an adequate response. Plaintiffwas specifically
‘Plaintiff is a frequent filer of litigation in this Court. Aloe Creme Laboratories, Inc, v.
Francine Co., 425 F.2d 1295, 1296 (5th Cir. 1970)[a federal court may take judicial notice of the
contents of its own records].
1

A??-3
/

2:17-cv-02949-BHH

Date Filed 10/31/18

Entry Number 71

Page 2 of 21

advised that if she failed to file an adequate response, the Defendants’ motion may be granted.
Plaintiffthereafter filed for an extension oftime to respond, which in light of Plaintiff s pro se status,
was granted on August 8, 2018. The time for Plaintiff to respond to these Defendants’ motion to
dismiss was extended to September 13,2018.
The remaining Defendant (Scarborough) filed a motion to dismiss on April 14,2018,
following which a second Roseboro order was entered on August 16,2018. Plaintiff filed a motion
for an extension of time to respond to Scarborough’s motion to dismiss, which was granted by the
Court on September 24,2018. In that order, Plaintiff was granted to October 19, 2018 to file her
responses to the pending motions to dismiss. Plaintiffthereafter filed her response to the Defendants
motions, out of time, on October 23,2018.
The Defendants’ motions are now before the Court for disposition.2
Plaintiffs Allegations
Although Plaintiff’s original Complaint was only five (5) pages (with an attached two
(2) page exhibit), her Second Amended Complaint (filed on July 3,2018) totals one hundred forty
one (141) pages (a fifty-four (54) page Complaint, with eighty-seven (87) pages of attached
exhibits).3 In her Second Amended Complaint, Plaintiff cites several additional federal code
sections, as well as the United States Constitution, as being the bases for her claims. Plaintiffs

2This case was automatically referred to the undersigned United States Magistrate Judge for
all pretrial proceedings pursuant to the provisions of 28 U.S.C. § 636(b)(1)(A) and (B) and Local
Rule 73.02(B)(2)(e), D.S.C. The Defendants have filed motions to dismiss. As these are dispositive
motions, this Report and Recommendation is entered for review by the Cotut.
^Plaintiff had also filed a proposed First Amended Complaint (totaling seventy-one (71)
pages, including exhibits) on June 18,2018. That motion was mooted when Plaintiff filed amotion
to amend with her proposed Second Amended Complaint on July 2,2018. See Order (Court Docket
No. 31).
2

2:17-cv-02949-BHH

Date Filed 10/31/18

Entry Number 71

Page 3 of 21

Second Amended Complaint asserts twelve (12) Causes of Action against these Defendants.
Plaintiffs claims in this lawsuit arise out of a state law malpractice action Plaintiff
brought against the Defendant Haynsworth Sinkler Boyd, P.A. (and associated attorneys). The
Defendant Scarborough (Master in Equity for Charleston County) is alleged to have “wrongfully”
issued some orders in related state law litigation arising out of that case. Plaintiffs allegations show
that she had hired the Defendant law firm to represent her in a case she brought against East Cooper
Community Hospital. Plaintifflost that case, and even had a sanctions order issued against her. See
also Order [Court Docket No. 27-2]. Plaintiff then filed a malpractice action against the Defendant
law firm and the Defendant Becker (along with another attorney, Manton Grier), which was also
decided against her and which resulted in a second award of sanctions against her. That Order also
enjoined the Plaintiff from filing any other suit on her own behalf. See also Order [Court Docket
No. 27-1],
Plaintiff now alleges in the instant law suit that the Defendant law firm’s efforts to
collect on the court ordered sanctions award is a violation of the FDCPA and the South Carolina
Consumer Protection Code. Second Amended Complaint, ^ U 14-17. Further, as part of the
litigation through which the Defendant law firm was attempting to levy on the sanctions imposed
against the Plaintiff, some of the proceedings were referred to Judge Scarborough, and Plaintiff
references two rulings made by Judge Scarborough during these proceedings as being improper and
in violation of her rights: a sua sponte (Plaintiff uses the term “ex parte”) order issued by Judge
Scarborough on February 9,2017, and a discovery and sanctions order issued by Judge Scarborough
on June 23,2017. Second Amended Complaint, H117,19. See also Attorney Defendants Exhibits
D and J. Plaintiff also asserts that because Scarborough is not a circuit court judge, he has no
3

2:17-cv-02949-BHH

Date Filed 10/31/18

Entry Number 71

Page 4 of 21

judicial immunity, and further argues in her Complaint that the conduct of which she complains
consisted of “non-judicial acts” in any event. Second Amended Complaint, H f 21, 23. Plaintiff
alleges that the Attorney Defendants’ actions with respect to the order of February 9,2017 (which
Plaintiff alleges caused Scarborough to issue the “wrongful” order) denied her her constitutional
rights of access to the Courts and of free speech. Second Amended Complaint, f 18,20. Plaintiff
then goes on to assert that the attorney Defendants failed to pay required fees in the state court
litigation, that Scarborough had improper ex parte communications and issued improper rulings
. which denied Plaintiff her rightful access to the courts, and that the summary manner in which her
state court litigation was handled violated her constitutional rights. Id., ^ f 24-30.
In her First Cause of Action, Plaintiff asserts a claim under the South Carolina
Constitution seeking injunctive reliefrequiring the Defendants to “refrain from enacting, executing,
enforcing or attempting to enforce the February 9,2017, Order”, a copy of which is attached to the
Second Amended Complaint. Id., ^ 31-36. In her Second Cause of Action, Plaintiff seeks this
same injunctive relief asserted as a federal constitutional claim. Id., H ^ 37-42. In her Third Cause
of Action, Plaintiff seeks this same injunctive relief under South Carolina tort or common law. Id.,
| f 43-47. In her Fourth Cause of Action, Plaintiff seeks damages against the Defendants under
42 U.S.C. § 1983 for a violation of her constitutional right of access to the courts and to free speech.
Id., T! Tf 48-59. In her Fifth Cause of Action, Plaintiff seeks declaratory and injunctive relief, again
pursuant to 42 U.S.C. § 1983.4 Id., f ^ 60-73.5 In her Sixth Cause of Action, Plaintiff seeks
442 U.S.C. § 1983 "'is not itself a source of substantive rights,' but merely provides 'a method
for vindicating federal rights elsewhere conferred.'" Albright v. Oliver, 510 U.S. 266, 271 (1994)
(quoting Baker v. McCollan. 443 U.S. 137,144 n.3 (1979)). A civil action under § 1983 allows "a
party who has been deprived of a federal right under the color of state law to seek relief." City of
(continued...)
4

2:17-cv-02949-BHH

Date Filed 10/31/18

Entry Number 71

Page 5 of 21

damages against the Defendants pursuant to 42 U.S.C. § 1985 for having engaged in an illegal
conspiracy against her. Id., ^ 74-88.6 In her Seventh Cause of Action, Plaintiff asserts a cause
of action for negligence against the Attorney Defendants, specifically with respect to correspondence
sent by the Defendant Caskey on November 1,2016 seeking payment of the judgment amount that
had been entered against the Plaintiff. Id., ^ ^ 89-90, and Plaintiffs attached Exhibit B. In her
Eighth Cause of Action, Plaintiff asserts “Equitable Claims” against the Attorney Defendants for
falsely claiming or misrepresenting amounts of money owed. Id.,

91-92. In her Ninth Cause

of Action, Plaintiff asserts a claim under the FDCPA against the Attorney Defendants for falsely
representing the character, amount, and/or legal status of the debt owed, again referencing counsel’s
correspondence of November 1, 2016. Id.,

1 93-97. In her Tenth Cause of Action, Plaintiff

asserts this same claim against the Attorney Defendants pursuant to the South Carolina Consumer
Protection Code. Id., ^ ^ 98-102. In her Eleventh Cause of Action, Plaintiff asserts a claim under
the SCUTPA7 (S.C.Code Aim. § 3 9-5-10, et. seq.), again relating to the correspondence ofNovember
1, 2016. Id., % 103-107. Finally, in her Twelfth Cause of Action, Plaintiff asserts a state law

'’(...continued)
Monterey v. Del Monte Dunes at Monterey, Ltd., 526 U.S. 687,707 (1999). To state a claim under
§ 1983, a plaintiff must allege two essential elements: (1) that a right secured by the Constitution or
laws of the United States was violated, and (2) that the alleged violation was committed by a person
acting trader the color of state law. West v. Atkins, 487 U.S. 42,48 (1988).
5Although Plaintiff indicates that she is seeking declaratory and injunctive relief in this cause
of action, she then states in the last paragraph of this cause of action that she is seeking “damages and
Id-473.
punitive damages in the an amount to be determined by a jury.
6This cause of action also seeks attorneys fees and costs pursuant to 42 U.S.C. § 1988. Id.,

188.
7South Carolina Unfair Trade Practices Act.
5

2:17-cv-02949-BHH

Date Filed 10/31/18

Entry Number 71

claim for civil conspiracy against all of the named Defendants. Id.,

Page 6 of 21

108-118. Plaintiff seeks

declaratory and/or injunctive relief and monetary damages, including fees and costs. See generally,
Plaintiffs Second Amended Complaint, with attached Exhibits.'
Discussion
The Defendants seek dismissal of all of Plaintiffs claims. When considering a Rule
12 motion to dismiss, the Court is required to accept the allegations in the pleading as true, and draw
all reasonable factual inferences in favor of the party opposing the motion. The motion can be
granted only if the party opposing the motion has failed to set forth sufficient factual matters to state
a plausible claim for relief “on its face”. Ashcroft v. Iqbal, 129 S.Ct. 1937, 1949 (2009); see also
Vogt v. Greenmarine Holding. LLC, 318 F.Supp. 2d 136,144 (S.D.N.Y. 2004) [“[0]n a motion to
dismiss, the Court does not weigh the strength of the evidence, and simply considers whether the
[claim] alleges sufficient facts which, if true, would permit a reasonable fact finder to find [the party
seeking dismissal of the claim] liable.”]. Further, the Federal Court is also charged with liberally
construing a complaint filed by a pro se litigant to allow for the development of a potentially
meritorious case. See Crux v. Beto, 405 U.S. 319 (1972); Haines v. Kemer, 404 U.S. 519 (1972).
Even so, the requirement of liberal construction does not mean that the Court can
ignore a clear failure in the pleadings to allege facts which set forth a Federal claim, nor can the

8In addition to the factual allegations of the Complaint, the Court may also consider as part
of a review of a 12(b) motion any document that is “integral to and explicitly relied on in the
complaint.” Phillips v. LCI International, Inc., 190 F.3d 609, 618 (4th Cir. 1999) [In addition to the
factual allegations of the Complaint, the Court may also consider as part of the review of a 12(b)
motion any documents that are “integral to and explicitly relied on in the complaint”]; Olson v.
Midland Funding, LLC, 578 Fed.Appx. 248, 250 (4th Cir. 2014) [“In considering a Fed.R.Civ.P.
12(b)(6) motion, a court may consider the complaint itself and any documents that are attached to it
....”] (internal citations omitted).
6

2:17-cv-02949-BHH

Date Filed 10/31/18

Entry Number 71

Page 7 of 21

Court assume the existence of a genuine issue of material fact where none exists. Weller v. Dep’t
of Social Services, 901 F.2d 387 (4th Cir. 1990). Here, after careful review and consideration ofthe
pleadings in this case and the arguments of the parties, and in compliance with the requirements of
Rule 12 and the liberal construction given to pro se pleadings, the undersigned finds for the reasons
set forth hereinbelow that the Defendants’ motions should be granted, and that his case should be
dismissed.
Damage Claims against the Defendant Scarborough
Initially, it is readily apparent that the Defendant Scarborough is entitled to dismissal
as a party Defendant because he has immunity from suit for all actions taken in his judicial capacity.
See Mireles v. Waco, 502 U.S. 9 (1991); Stump v. Sparkman, 435 U.S. 349,351-64 (1978); Pressly
v. Gregory, 831 F.2d 514,517 (4th Cir. 1987)[a suit by South Carolina inmate against two Virginia
magistrates]; see also Siegert v. Gilley, 500 U.S. 226 (1991) [immunity presents a threshold question
which should be resolved before discovery is even allowed]; accord Bolin v. Story, 225 F.3d 1234
(11th Cir. 2000)[discussing judicial immunity of United States District Judges and United States
Circuit Judges].
Plaintiffs arguments for why the Defendant Scarborough is not entitled to judicial
immunity are patently without merit. First, Plaintiff argues that because Scarborough is not a circuit
court judge, he has no judicial immunity. However, Scarborough does not need to be a circuit court
judge, or any other particular type ofjudge. The fact that he is a judge is sufficient. Chu v. Griffith,
771 F.2d 79, 81 (4th Cir. 1985)[“It has long been settled that a judge is absolutely immune from a
claim for damages arising out of his judicial actions.”].
Plaintiff s additional contention that Scarborough is not entitled to immunity because
7

2:17-cv-02949-BHH

Date Filed 10/31/18

Entry Number 71

Page 8 of 21

the conduct of which she complains were “non-judicial acts” is also without merit. The exhibits
provided9 show that after Plaintiff lost her lawsuit against the East Cooper Community Hospital, she
filed a legal malpractice lawsuit against the Defendant law firm and the Defendant Becker, which
she also lost. Further, in addition to losing her malpractice case, the Court sanctioned Plaintiff in
the amount of $200,000 due to her “unreasonable and ill-considered frivolous lawsuit” and her
“pattern of abusing the legal process in bringing frivolous actions....”. See Exhibit [Court Docket
No. 27-1]. As a result of her state court conduct, the Supreme Court of South Carolina also issued
a separate order directing Clerks of Court in South Carolina to refuse to accept any further pro se
filings from the Plaintiff that were related in any way to her East Cooper Community Hospital
litigation, which included her related malpractice litigation. See Exhibit [Court Docket No. 27-3].
The malpractice Defendants then commenced supplemental proceedings to collect on the $200,000
sanction award, and on December 30, 2016, South Carolina Circuit Court Judge Roger Young
referred the matter to the Defendant Judge Scarborough to handle supplementary proceedings in the
case. See Exhibit [Court Docket No. 46-2], A second State Circuit Judge, Deandra Jefferson,

9In addition to the exhibits Plaintiff attached to her Complaint, the Defendants have also
provided copies of numerous court orders and related documents from Plaintiff’s state court
proceedings, all of which may be properly considered by the Court in ruling on the motions to
dismiss. See, n. 8, supra. See also Philips v. Pitt Cnty. Mem. Hosp., 572 F.3d 176, 180 (4th Cir.
2009) [Courts “may properly take judicial notice ofmatters ofpublic record”]; American Chiropractic
Ass’n v. Trigon Health Care, Inc., 367 F.3d 212,234 (4th Cir. 2002) [Court may consider evidence
of which the Plaintiff has notice, relies on in framing the Complaint, or does not dispute its
authenticity]; Tisdale v. South Carolina Highway Patrol, C/A No. 0:09-1009-HFF-PJG, 2009 WL
1491409, *1 n. 1 (D.S.C. May 27, 2009), affd347 F. App’x 965 (4th Cir. Aug. 27, 2009); tore
Katrina Canal Breaches Consolidated Litigation, No. 05—4182,2008 WL 4185869 at * 2 (E.D.La.
September 8,2008)[noting that courts may take judicial notice of governmental websites including
other courts’ records]; Williams v. Long, 585 F.Supp.2d 679,687-88 (D.Md. 2008)[noting that some
courts have found postings on government web sites as inherently authentic or self-authenticating].
8

2:17-cv-02949-BHH

Date Filed 10/31/18

Entry Number 71

Page 9 of 21

entered a similar order of reference to Judge Scarborough in January 2017. See Exhibit [Court
Docket No. 46-4].
Both of the orders issued by Judge Scarborough (of which Plaintiff complains) were
issued in his judicial capacity pursuant to these orders of reference of the case to him.

As such,

these were not “non-judicial” actions by Judge Scarborough- Cf. Mireles, 502 U.S. at 11 [Noting
that a judge is immune from liability except for “non-judicial actions, i.e., actions not taken in the
judge’s judicial capacity”]; King v. Myers, 973 F.2d 354, 357 (4th Cir. 1992) [whether a judge’s
conduct is a “judicial act” rests on “whether the function is one normally performed by a judge, and
whether the parties dealt with the judge in his or her judicial capacity”]. Further, it is also clear that
Judge Scarborough had jurisdiction to handle the matters before him and to issue the complained of
orders. Cf. Mireles, 502 U.S. at 11 [Noting that in order for a judge not to be immune for their
judicial actions, the actions taken must have been “in the complete absence of all jurisdiction”].
Finally, Judge Scarborough cannot be held liable for damages in this case just because Plaintiff
disagrees with his rulings, or because she believes he otherwise acted improperly or even maliciously
in the handling of her case. Stump, 435 U.S. at 356 [“A judge will not be deprived of immunity
because the action he took was in error, was done maliciously, or was in excess of his authority,

10It is noted that Plaintiff appealed both of Judge Scarborough’s orders. Plaintiff s appeal of
Judge Scarborough’s order of February 9,2017; see Exhibit [Court Docket No. 46-5], was dismissed
by the South Carolina Court of Appeals, dismissed again by the Court of Appeals on reconsideration,
and then ultimately denied again by the South Carolina Supreme Court. See Exhibit [Court Docket
Nos. 46-7,46-8, and 46-10]. With respect to the order of June 23,2017; see Exhibit [Court Docket
No. 46-11]; Plaintiff appealed that order to the South Carolina Court of Appeals, which was denied
as being an interlocutory appeal. See Exhibit [Court Docket No. 46-14]. Petitioner then filed a
petition for rehearing, which was denied by the Court of Appeals. A remittitur was filed on October
lBs 2018. https://www.charlestoncounty.org/depaTtments/clerk-of-court/online-services.php.
9

2:17-cv-02949-BHH

Date Filed 10/31/18

Entry Number 71

Page 10 of 21

rather, he will be subject to liability only when he has acted in the clear absence of all jurisdiction”].
Therefore, the Defendant Scarborough is entitled to dismissal as a party Defendant
in this case.
Claims of Constitutional Violations against the Law Firm and Attorney Defendants
Plaintiffs constitutional claims against the Attorney and Law Firm Defendants
asserted under 42 U.S.C. § 1983 are also subject to dismissal. Because the United States
Constitution regulates only the government, not private parties, a litigant asserting a § 1983 claim
that his or her constitutional rights have been violated must first establish that the challenged conduct
constitutes “state action.” See, e.g., Blum v. Yaretsky, 457 U.S. 991, 1002 (1982). See also, n. 4,
supra. To qualify as state action, the conduct in question “must be caused by the exercise of some
right or privilege created by the State or by a rule of conduct imposed by the State or by a person for
whom the State is responsible,” and “the party charged with the [conduct] must be a person who may
fairly be said to be a state actor.” Lugar v. Edmondson Oil Co., Inc., 457 U.S. 922,937 (1982); see
U. S. v. Inf 1 Bhd. of Teamsters, Chauffeurs, Warehousemen and Helpers of Am., AFL-CIO, 941
F.2d 1292 (2d Cir. 1991). Private attorneys are not government actors for purposes of § 1983
lawsuits just because they participate in court proceedings in a state judicial system. See Jackson
v. State of South Carolina, 498 F.Supp. 186,192-193 (D.S.C. 1979)[Retained attorney does not act
under color law within in the meaning of §1983]. Therefore, such actions are not “under color of
state law,” and this purely private conduct, no matter how allegedly wrongful or injurious, is not
actionable under § 1983. See Lugar v. Edmondson Oil Co., 457 U.S. at 936.
While a private individual or corporation (such as the Defendants here) can act under
color of state law, his, her, or its actions must occur where the private individual or entity is “a
10

2:17-cv-02949-BHH

Date Filed 10/31/18

Entry Number 71

Page 11 of 21

willful participant in joint action with the State or its agents.” Dennis v. Sparks, 449 U.S. 24,27-28
(1980). However, there are no “plausible” allegations here to suggest that these Defendants’ actions
were anything other than purely private conduct. Iqbal, 129 S.Ct. at 1949 [to survive a motion to
dismiss, the plaintiff must set forth sufficient factual matters to state a plausible claim for relief “on
its face”]. Plaintiff alleges that the law firm and attorney Defendants all engaged in a “conspiracy”
with Scarborough to violate her rights, but this conclusory claim is not sufficient to state a
“plausible” claim of joint action with an agent of the State to survive the Defendants’ motions to
dismiss. See Bell Atlantic Corn, v. Twombly, 550 U.S. 544,555 (2007)[While a complaint attacked
by a Rule 12(b)(6) motion to dismiss does not need detailed factual allegations, factual allegations
must be enough to raise a right to relief above the speculative level]; Johnson v. Bank of America,
No. 09-1600,2010 WL 1542560, at * 2 (D.S.C. April 16,2010)[“Mere legal conclusions [are] not
entitled to a presumption of truth”]. To establish a civil conspiracy under § 1983, a Plaintiff must
show that the Defendants acted jointly in concert, and that some overt act was done in furtherance
of the conspiracy which resulted in the deprivation of a constitutional right. Glassman v. Arlington
Cnty., 628 F.3d 140 (2010Yciting Hinkle v. City of Clarksburg, 81 F.3d 416 (4th Cir.1996)). Each
member ofthe alleged conspiracy must have shared the same conspiratorial objective, and the factual
allegations must reasonably lead to the inference that the Defendants came to a mutual understanding
to try to “accomplish a common and unlawful plan.” Hinkle, 81 F.3d at 421. As such, Plaintiff’s
allegations must be more than just “rank speculation and conjecture,” especially when the actions
are capable of innocent interpretation. Id. at 422; see also Frev v. City of Herculaneum, 44 F.3d at
671 [“Complaint must contain facts which state a claim as a matter of law and must not be
conclusory”]. Here, however, the attorney and law firm Defendants were within their rights to
11

2:17-cv-02949-BHH

Date Filed 10/31/18

Entry Number 71

Page 12 of 21

pursue collection through the state court system of the sanctions judgment that had been issued
against the Plaintiff, and the Defendant Judge Scarborough was within his rights to issue orders and
otherwise handle proceedings in that case. See, also, discussion, supra.
Hence, no “plausible” claim of an unlawful or improper “conspiracy” between these
Defendants has been presented. See Johnson v. Holder, No. 11-2650, 2012 WL 4587355, * 1
(D.S.C. Sept. 28,2012) [“More than labels and conclusions [are required], and a formulaic recitation
of the elements of a cause of action will not do”] (quoting Twombly, 550 U.S. at 555), adopted by.
2013 WL 314753 (D.S.C. Jan. 28, 2013); Harper v. United States, 423 F.Supp. 192, 196 (D.S.C.
1976)[“[W]here the claims in a complaint are insufficiently supported by factual allegations, these
claims may be properly dismissed by summary dismissal”]; Marshall v. Odom, 156 F.Supp. 2d 525,
532 (D. MD. 2001)[“To establish a civil conspiracy under § 1983, [the plaintiff] must present
evidence that the [defendants] acted jointly in concert and that some overt act was done in
furtherance of the conspiracy which resulted in [his] deprivation of a constitutional right.”], citing
Hinkle, 81 F.3d at 421; Wetherington v. Phillips, 380 F. Supp. 426, 428-429 (E.D.N.C. 1974),
afFd., 526 F.2d 591 (4th Cir. 1975)[The generalized allegations of a civil conspiracy are not
sufficient to maintain a claim under § 1983].
Therefore, Plaintiff has failed to state a claim under 1983 against the law firm and
attorney Defendants.11

"It is noted that in her Sixth Cause of Action, Plaintiff asserts a separate “conspiracy” claim
under 42 U.S.C. § 1985. However, Plaintiff has failed to set forth any “plausible” claim of a violation
of that statute. See Griffin v. Breckenridge, 403 U.S. 88,102-103 (1971)[Setting forth criteria for
maintaining a conspiracy claim under 42 U.S.C. § 1985(3)1;Simmons v. Poe, 47 F.3d 1370, 13761377 (4th Cir. 1995)[Same]. Specifically, Plaintiffhas failed to set forth a “plausible” claim that the
(continued...)
12

2:17-cv-02949-BHH

Date Filed 10/31/18

Entry Number 71

Page 13 of 21

Claims for Injunctive and/or Declaratory Relief
Plaintiff also seeks to have this Court enjoin the execution of various state court
orders that have be entered relating to her state court litigation. However, the Anti-Injunction Act
precludes such an injunction. Section 2283 of Title 28 of the United States Code mandates that
except in certain circumstances “[a] court of the United States may not grant an injunction to stay
proceedings in a State court....” The Act constitutes “an absolute prohibition against any injunction
of any state-court proceedings, unless the injunction falls within one of the three specifically defined
exceptions Act.” Vendo Co. v. LektroVend Corn., 433 U.S. 623, 630 (1977) (plurality opinion).
These three exceptions are injunctions: (1) expressly authorized by statute; (2) necessary to aid the
court's jurisdiction; or (3) required to protect or effectuate the court’s judgments. Chick Kam Chop
v. Exxon Corn., 486 U.S. 140, 146 (1988); Atlantic Coast Line R.R. Co. v. Board of Locomotive
Eng’rs, 398 U.S. 281, 287-88 (1970). None of these exceptions applies here.
Moreover, to the extent Plaintiff is attempting to raise or present defenses to the
decisions and rulings of the state courts through the filing of this lawsuit, she had the opportunity
to present those defenses and arguments in the hearings held before the state courts, and she may not

"(...continued)
Defendants conspired together to deny her the equal protection of the laws, her equal privileges and
immunities under the laws, or otherwise deprived her of exercising any right or privilege of a citizen
of the United States. Griffin, 403 U.S. at 102. Additionally, the Supreme Court has held that in order
to maintain a conspiracy claim under § 1985(3), a Plaintiffmust show that the alleged conspiracy was
motivated by “some racial, or perhaps otherwise class-based invidiously discriminatory animus.”
Griffin,403 U.S. at 102; see alsoTrerice v. Summons, 755 F.2dl081,1084(4thCir. 1985). Plaintiff
has failed to allege any facts to indicate any discriminatory motive on the part of the Defendants.
Therefore, Plaintiff’s Sixth Cause of Action asserting a claim under § 1985 is subject to summary
dismissal. Cf. Johnson v. Flores, No. 05-1628,2009 WL 606263, at * 6 (N.D.Cal. March 9,2009).
13

2:17-cv-02949-BHH

Date Filed 10/31/18

Entry Number 71

Page 14 of 21

re-litigate those claims now in this federal lawsuit. Hilton Head Center of South Carolina. Inc, v.
Public Service Commission of South Carolina, 362 S.E.2d 176,177 (S.C. 1987) [Under the doctrine
of res judicata “[a] litigant is barred from raising any issues which were adjudicated in the former
suit and any issues which might have been raised in the former suit”’]; see In re Dewayne, No. 182163,2018 WL 4056986 at * 4 (D.S.C. Aug. 24,2018). Under 28 U.S.C. § 1738, known as the Full
Faith and Credit Statute, federal courts must give the same preclusive effect to a state court judgment
as another court of that state would give. Therefore, any such claims are subject to dismissal
pursuant to the doctrine of res judicata, as the pleadings in the case at Bar and in the state court
litigation show that the parties or such parties’ privies12 in this action and the state court actions are
essentially the same, there is identity of the subject matter, and there was an adjudication on the
merits in the state court action. Riedman Com, v. Greenville Steel Structures, Inc., 419S.E.2d217,
218 (S.C. 1992) [res judicata established where there is identity ofthe parties, identity of the subject
matter, and there was an adjudication of the issue in the former suit]. Plaintiff is also barred by the
doctrine of collateral estoppel “from re-litigating in a subsequent suit an issue actually and

I2Privies are persons who have mutual or successive relationships to the same property rights
and were legally represented at trial. South Carolina Dep’t of Social Servs v. Winyah Nursing
Homes, 320 S.E.2d 464,468-469 (S.C.Ct.App. 1984) (citing First Nat’l Bank of Greenville v. U.S.
Fidelity & Guaranty Co., 35 S.E.2d 47 (S.C. 19451: see Ex Parte Allstate Ins. Co., 528 S.E.2d 679,
681 (S.C. Ct. App. 2000) [When applied to a judgment or decree, the term “privity” means “one so
identified in intent with another that he represents the same legal right”]; Briggs v. Newberry County
Sch. Dist., 838 F. Supp. 232,235 (D.S.C.1992) [Res judicata precludes a party from litigating in a
second action identical claims against the same parties or their privies on which a final determination
on the merits was issued]. Cf. Weinberger v. Tucker, 510 F.3d 486, (4* Cir. Dec. 20,2007) [“Courts
have held that the attorney-client relationship itself establishes privity.”] (quoting Henry v Farmer
City State Bank, 808 F.2dl228,1235 n. 6 (7* Cir. 1986) [“Even though the Bank was the only actual
party to the state court mortgage foreclosure proceedings, the other defendants, as... and attorneys
of the Bank, are in privity with the Bank for purposes of res judicata.”]).
14

2:17-cv-02949-BHH

Date Filed 10/31/18

Entry Number 71

Page 15 of 21

necessarily litigated and determined in a prior action”. Jinks v. Richland County, 585 S.E. 2d 281,
285 (S.C. 2003); Nelson v, OHG of S.C., Inc.. 608 S.E. 855, 858 (S.C. 2005) [Holding that
plaintiff s claims were barred by collateral estoppel due to grant of summary judgment in prior state
court action]; see also Stone v. Roadway Express, 627 S.E.2d 695, 698 (S.C. 2006) [“Collateral
estoppel prevents a party from re-litigating in a subsequent suit an issue actually and necessarily
litigated and determined in a prior action”] (quoting Jinks v. Richland County, supra); cf. United
States v. Mendoza, 464 U.S. 154,159n.4(1984) [“Defensive use of collateral estoppel occurs when
a defendantseeks to prevent a plaintifffrom relitigating an issue the plaintiffhas previously litigated
unsuccessfully in another action against... a different party”]; Parklane Hosiery Co., Inc, v. Shore.
439 U.S. 322,326 (1979); see Meyer v. McGowen, No. 16-777,2018 WL4300121 at*2(D.S.C.
Sept. 10, 2018).
Further, to the extent Plaintiff is seeking, through the filing of this lawsuit, a review
of the judgements entered in her cases by the state courts, federal district courts do not hear
“appeals” from state court actions. See District of Columbia Court of Appeals v. Feldman, 460 U.S.
462,476-82 (1983)[a federal district court lacks authority to review final determinations of state or
local courts because such review can only be conducted by the Supreme Court of the United States
under 28 U.S.C. § 1257]; Rooker v. Fidelity Trust Co.. 263 U.S. 413 (1923). Thus, Plaintiffmay not
use this civil action to challenge the determinations or rulings of the state courts. See Anderson v.
Colorado, 793 F.2d 262, 263 (10th Cir. 1986) [“It is well settled that federal district courts are
without authority to review state courtjudgments where the relief sought is in the nature of appellate
review.”]; Brinkmann v. Johnston, 793 F.2d 111, 113 (5th Cir. 1986); see also Wise v. Bravo, 666
F.2d 1328,1333 (10th Cir, 1981); Gurley v. Superior Court of Mecklenburg County, 411 F.2d 586,
15

2:17-cv-02949-BHH

Date Filed 10/31/18

Entry Number 71

Page 16 of 21

587-588 & nn. 2-4 (4th Cir. 1969) [holding that federal district courts and United States Courts of
Appeals have no appellate or supervisory authority over state courts]. Therefore, to the extent that
Plaintiff is requesting relief in this lawsuit that would require this Court to overrule and reverse
orders and rulings made in the state courts, such a result is prohibited under the Rooker-Feldman
doctrine. Davani v. Virginia Dep’t. of Transp., 434 F.3d 712, 719-720 (4th Cir. 2006); see Exxon
Mobil Corn, v. Saudi Basic Industries Corn., 544 U.S. 280,293-294 (2005); Jordahlv. Democratic
Party ofVa., 122 F.3d 192,201 (4th Cir. 1997).13
Alternatively, to the extent that the state court actions are still pending,14 the
abstention doctrine set forth in Younger v. Harris. 401 U.S. 37,91 (1971), and its progeny preclude
this Court from interfering with ongoing proceedings, as Plaintiffcan raise these issues in those state
court proceedings. The Younger doctrine applies to civil proceedings that “implicate a State s
interest in enforcing the orders and judgment of its courts.” Sprint Commc’ns, Inc, v. Jacobs, 134
S.Ct. 584,588 (2013)(intemal quotation marks omitted). Thus, to the extent that Plaintiff is seeking
injunctive or declaratory relief relating to the decisions and rulings covering the subject matter of
the underlying action in state court, her claim is barred under the Younger doctrine, although the
abstention principles established in Younger may not require dismissal of Plaintiffs claims for
damages. See, e.g., Lindsay v. Rushmore Loan Mgmt., Servs., LLC,No. 15-1031,2017 WL167832,
at*l, 4(D. Md. Jan. 17,2017) [“causes of action for damages, such as Plaintiffs’, may be stayed but
I3The Rooker-Feldman doctrine is jurisdictional, so it may be raised by the Court sua sponte.
American Reliable Ins. Co. v. Stillwell, 336 F.3d 311,316 (4th Cir. 2003).
14The proceedings in the judgment enforcement action filed against Plaintiff by the
See 2007-CP-100144,
Defendant Law firm are apparently still proceeding.
https://www.charlestoncounty.org/departments/clerk-of-court/online-services.php.
16

2:17-cv-02949-BHH

Date Filed 10/31/18

Entry Number 71

Page 17 of 21

not dismissed on Younger abstention grounds](citing Quackenbush v. Allstate Ins. Co., 517 U.S.
706, 721 (1996)).
Therefore, Plaintiffs requests for injunctive and/or declaratory relief as set forth in
her Second Amended Complaint are without merit, and should be dismissed.
Federal Claims under the FDCPA
Plaintiff alleges in her Complaint that the Defendant law firm’s efforts to collect the
state court judgment entered against her violates the Fair Debt Collections Practices Act. To
establish a prima facie case for violation of the FDCPA, Plaintiff must establish: (1) she is a
‘consumer’ as defined by the FDCPA; (2) the debt arises out of a transaction entered primarily for
personal, family, or household purposes; (3) the defendant is a ‘debt collector’ as defined by the
FDCPA; and (4) the defendant has violated, by act or omission, a provision of the FDCPA. See
Creighton v. Emporia Credit Service, Inc., 981 F. Supp. 411,414 (E.D. Va. 1997). While attorneys
can be considered “debt collectors” as that term is defined by the FDCPA under some circumstances,
Plaintiffs allegations fail to provide sufficient facts to establish a plausible claim that the Defendants
used “any false, deceptive, or misleading representation or means in connection with the collection
of any debt,” or used “unfair or unconscionable means to collect or attempt to collect any debt”. 15
U.S.C. § § 1692(e) and (f).
There is nothing “false”, “deceptive”, “misleading” or “unfair or unconscionable”
about the Defendant law firm attempting to collect a sanctions award that had been entered in its
favor against the Plaintiff by a court order. Moreover, Plaintiff is not a “consumer” under the
FDCPA for purposes of the debt collection attempt at issue here, nor does the “debt” arise out of
“any obligation or alleged obligation of a consumer to pay money arising out of a transaction in
17

2:17-cv-02949-BHH

Date Filed 10/31/18

Entry Number 71

Page 18 of 21

which the money, property, insurance or services which are the subject of the transaction are
primarily for personal, family, or household purposes, whether or not such obligation has been
reduced to judgment’. 15 U.S.C. § 1692a(5). Therefore, Plaintiffs claims asserted under the
FTCPA should be dismissed. Johnson, 2012 WL4587355, * 1 [“More than labels and conclusions
[are required], and a formulaic recitation of the elements of a cause of action will not do”] (quoting
Twombly, 550 U.S. at 555), adopted by, 2013 WL 314753 (D.S.C. Jan. 28,2013); see also Dickson
v. Microsoft Corp., 309 F.3d 193,213 (4* Cir. 2002)[Plaintiff has burden of alleging facts sufficient
to state all the elements of a claim].
Remaining State Law Claims
Finally, Plaintiff asserts various state law claims against the Defendant law firm and
Attorneys. See generally. Plaintiff’s First, Third, Seventh, Eighth, Tenth, Eleventh and Twelfth
Causes of Action. The law firm and attorney Defendants correctly note in their motion that if the
Court dismisses Plaintiffs federal claims from this lawsuit, these pendant state law claims should
all also be dismissed under United Mine Workers v. Gibbs, 383 U.S. 715 (1966), and its progeny.
See In Re Conklin, 946 F.2d 306,324 (4th Cir. 1991); Nicol v. Imagematrix, Inc., 767 F.Supp. 744,
746, 749 (E.D.Va. 1991); Mills v. Leath, 709 F.Supp. 671, 675-676 (D.S.C. 1988) [Noting that
federal courts should generally decline to exercise pendant jurisdiction over remaining state law
claims after dismissal of federal claims in a lawsuit]; Camegie-Melon v. Cohill, 484 U.S. 343
(1988V, Taylor v. Waters, 81 F.3d 429,437 (4th Cir. 1996V see also Lovem v. Edwards, 190 F.3d
648, 655 (4th Cir. 1999) [“[T]he Constitution does not contemplate the federal judiciary deciding

18

2:17-cv-02949-BHH

Date Filed 10/31/18

Entry Number 71

Page 19 of 21

issues of state law among non-diverse litigation”].15
Gibbs provides that where federal claims in a lawsuit originally filed in United States
District Court are dismissed, leaving only state law causes of action, dismissal of the remaining state
law claims without prejudice is appropriate in order to allow the Plaintiff to pursue and obtain a
ruling as to the viability of their state law claims in a more appropriate forum. See generally, Gibbs,
383 U.S. at 726 [“Certainly, if the federal claims are dismissed before trial,... the state claims should
be dismissed as well”]; Camegie-Mellon, 484 U.S. at 350, n. 7 [“[I]n the usual case in which all
federal-law claims are eliminated before trial, the balance of factors to be considered under the
pendent jurisdiction doctrine ... will point toward declining to exercise jurisdiction over the
remaining state law claims.”]. Here, this case is in its early stages (being before the court on motions
to dismiss), and if Plaintiffs state law claims were to survive, it would be much more appropriate
for those claims to be tried by the state courts.
Finally, dismissal of Plaintiffs state law claims would also not prejudice the Plaintiff,
as federal law provides for tolling of statutes of limitation for state claims during the. period they
were pending in federal court and for thirty days afterwards. See 28 U.S.C. § 1367(d); Jinks v.
Richland County, 538 U.S. 456 (2003); Hedges v. Musco, 204 F.3d 109, 123-124 (3rd Cir. 2000);
Beck v. Prupis, 162 F.3d 1090,1099-1100 (11th Cir.1998) [“a dismissal under section 1367 tolls
the statute of limitations on the dismissed claims for 30 days”]. Therefore, Plaintiff would be able
to refile her state claims in state court, if she chooses to do so, assuming of course that they were

ISA11 of the parties in this case are alleged to be South Carolina residents. See Second
Amended Complaint, p. 2. Therefore, there is no diversity jurisdiction in this case. See 28 U.S.C.
§ 1332(a).
19

2:17-cv-02949-BHH

Date Filed 10/31/18

Entry Number 71

Page 20 of 21

timely asserted initially through the filing of this action.
Conclusion
Based on the foregoing, it is recommended that the Defendant Mikell Scarborough
be dismissed as a party Defendant in this case. It is further recommended that Plaintiff’s federal
causes of action asserting claims under the United States Constitution, 42 U.S.C. §1983,42 U.S.C.
§1985, and the FDCPA (Plaintiff’s Second, Fourth, Fifth, Sixth and Ninth Causes of Action) all be
dismissed for the reasons stated. Plaintiff’s remaining state law causes of action should then be
dismissed, without prejudice. Plaintiff may then refile her state law claims in state claims in state
court, if she chooses to do so. Seabrook v. Jacobson, 153 F.3d 70, 72 (2d Cir. 1998)[“Section
1367(d) ensures that the plaintiffwhose supplemental jurisdiction is dismissed has at least thirty days
after dismissal to refile in state court.”].
The parties are referred to the Notice Page attached hereto.

Bristow Marchant
United States Magistrate Judge
October 31,2018
Charleston, South Carolina

20

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
CHARLESTON DIVISION
Cynthia Holmes
Plaintiff,
v.

James Y. Becker, M.M. Caskey,
Haynsworth Sinkler Boyd, P.A., and
Mikell R. Scarborough,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)

Civil Action No. 2:17-2949-BHH

ORDER

This matter is before the Court upon Plaintiff Cynthia Holmes (“Holmes” or “Plaintiff')
motion to alter or amend the judgment entered in favor of Defendants in this case.
Specifically, in an order filed on March 29, 2019, the Court adopted the Magistrate Judge’s
Report and overruled Plaintiffs objections to that Report, ultimately granting Defendants’
motions to dismiss and dismissing any remaining state law claims without prejudice. In
her instant motion to reconsider, filed pursuant to Rule 59(e) of the Federal Rules of Civil
Procedure,

Plaintiff asserts that “there is no jurisdiction for the Report and

Recommendation (R&R) or its adoption” (ECF No. 100 at 2) and simply rehashes the
arguments she raised in prior filings.
Reconsideration of a judgment pursuant to Rule 59(e) is an extraordinary remedy
that should be used sparingly. See Pac. Ins. Co. v. Am. Natl Fire Ins. Co., 148 F.3d 396,
403 (4th Cir. 1998); Exxon Shipping Co. v. Baker, 554 U.S. 471,485 n. 5 (2008). Ordinarily
a court may grant a motion to alter or amend pursuant to Rule 59(e) for only three reasons:
(1) to comply with an intervening change in controlling law; (2) to account for new evidence

not available previously; or (3) to correct a clear error of law
or prevent manifest injustice.
Pac. Ins. Co., 148 F.3d at 403.

Importantly, after review, the Court finds that Plaintiff has

failed to point to any change i
in controlling law, any new evidence not available previously,
or any clear error of law

or manifest injustice. Accordingly, the Court denies Plaintiff’s

motion to reconsider (ECF No. 100).
AND IT IS SO ORDERED.
/s/Bruce H. Hendrir.ks________
The Honorable Bruce Howe Hendricks
May 23, 2019
Charleston, South Carolina
NOTICE OF RIGHT TO APPfai
The right to appeal this order is governed by Rules 3 and 4
of the Federal Rules of
Appellate Procedure.

2

.FILED: January 21, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1572
(2:17-cv-02949-BHH)
CYNTHIA HOLMES, a/k/a C. Holmes, a/k/a Cynthia Holmes, M.D.
Plaintiff - Appellant
v.
JAMES Y. BECKER, Individually; M. M. CASKEY, Individually;
HAYNS WORTH SINKLER BOYD, P. A.; MIKELL R. SCARBOROUGH, in
official capacity and, as indicated, individually re: unofficial acts
Defendants - Appellees

ORDER
The petition for rehearing en banc was circulated to the full court. No judge
requested a poll under Fed. R. App. P. 35. The court denies the petition for
rehearing en banc. The court denies the motions to exceed length limitations for
petition for rehearing and for disposition on outstanding motion. The court denies
as moot the motion to review record on appeal.
For the Court
Is/ Patricia S. Connor. Clerk

'STATE OF SOUTH CAROLINA
. COUNTY OF CHARLESTON
IN THE COURT OF COMMON PLEAS

FORM 4
■JUDGMENT IN A CIVIL CASE
CASE-NO. 2007 CP-IO-i «4

Holmes
Hayriesworth Slnkler Bovd. et al.

PLAINTIFF(S)'
DEFENDANTS)'

Attorney for-; Q Plamtiti ..
Ptfehdant-J '
or - ■ ■ - •: >/y>Z -V •
_______ □ Self-Represented Litigant’ ■
’ c*
TVPE (CHECK ONE)
. The issues

Submitted by:
□

' ' --------------- -------

JURY VFRnirT

&

%

~n
D

nsSfS WEN (S^SQK REAS°W- □ Rule 400), SCRCP; Q Bankiuptcfe 0

s rn
o

a°Sra^"3oteT““^,'0rt”0re,0""^-™aK»r”“JI«'\r

D OAgKfeSgg
NOTE:

ATTORNEYS ARE RESPONSIBLE FOR NOTIFYING LOWER COURT \

r*

trtmixi»i

„
The court is

S=S

of h Tl
* J T atCOmey'0ther than pet,t,0ner'licerised t0 »»*« of lawln this state.- Given the broad language
to « A I ,
J
* m0tl0nS h3Ve been flled ** 0r- H0,mes< P'° ** the court orders the Clerk of Court*! office
to strike ell-motions filed by Or. Holmes In this matter as well as all future motions, if any.
-ruj n
,
.
ORDER INFORMATION
This order □ ends 0 does not end the case.
Additional Information for the Clerk:

m.
' Judgment in Favor or
(List name(s) below)
NA­

Judgment Against
' •
(List narnc(s). below) , ,
NA

JOB

Judgment Amount To.be Enrolled
' (List amountfe) below)
SNA

s
■S'
______,
__________________________________ ,
,.
,
■If applicable, describe the property, including tax map information and address, referenced in the order."' •

SCRCP Form 4G (10/2011)

Jpp -Jb

Page l of2

OSffStSSSS

^ <**'«*"’*'• W «*** concerning ft.

ot nddiliinal iS 2&S ,

“T/,0"? Proe““'e' A”0mB “ te

««„ „ w,

«* «tama

-*■ ^™,,ndJ2EOS;
Circuit Court Jm

Jm&kL

3062

.

Judge Code

For Clerk of Court Office Use Only
This judgment was cntcred bn the
day of
placed in the appropriate attorney's box on this
to parties (when appearing pro se) as follows:

ATTORNEY(S) FOR THE PLAINT!FF(S>

, 20
day of

and a copy.mailed first class or
. 20
.to attorneys of record or

ATTORNEY(S) FOR THE DEFENDANTS)
CLERK OF COURT

Court Reporter:

« '0
SCRCP Form 4C (10/2011)

Page 2 of2

